D
I                                                            MINE SAFETY AND HEALTH
S
C                                                            ADMINISTRATION
U
S
S
I
O
N              Office of Inspector General—Office of Audit
D
R
A
F
T




                                                             ANALYSIS OF MSHA’S MNM INSPECTION
                                                             ACTIVITY DOES NOT SHOW EXCESSIVE
                                                             ENFORCEMENT IN SOUTH DAKOTA




                                                                                Date Issued:   January 15, 2013
02-A12-345-67-890                                                            Report Number:    05-13-001-06-001
U.S. Department of Labor                                   January 2013
Office of Inspector General
Office of Audit                                            ANALYSIS OF MSHA’S MNM INSPECTION
                                                           ACTIVITY DOES NOT SHOW EXCESSIVE
                                                           ENFORCEMENT IN SOUTH DAKOTA

BRIEFLY…                                                   WHAT OIG FOUND
Highlights of Report Number 05-13-001-06-001, issued       Overall, our analysis did not find any significant
to the Assistant Secretary for Mine Safety and Health.     differences between the complainant mines, South
                                                           Dakota, and similar mines around the country.
WHY READ THE REPORT
The Assistant Secretary for Mine Safety and Health is      We found that both of our metrics increased for all
responsible for ensuring that the office of Metal and      Metal and Nonmetal mines in FY 2009. This increase,
Nonmetal Safety and Health conducts appropriate            however, was directly attributable to the passage and
safety and health inspections of metal and nonmetal        implementation of the Mine Improvement and New
(MNM) mines.                                               Emergency Response Act of 2006, which mandated
                                                           much higher inspection levels. In addition, Congress
On April 7, 2011, Senator John Thune of South Dakota       provided funding for MSHA to hire 170 new inspectors
requested that the Office of Inspector General (OIG)       that same year.
determine if Mine Safety and Health Administration
(MSHA) regulations were effectively and consistently       We also found that both metrics were higher for the
applied throughout the mining industry, and particularly   complainant mines when we compared them to other
in South Dakota. Senator Thune’s office had received       similar mines and for the state of South Dakota when
complaints from a group of South Dakota MNM mine           we compared it to the national average. We determined
operators alleging that MSHA was unfairly issuing them     that the majority of the increases in both metrics could
violations and penalties.                                  be traced to two of the complainant mine operators.
                                                           When we excluded the data for these two operators, the
WHY OIG CONDUCTED THE AUDIT                                results for both the complainants and South Dakota
As part of our audit oversight responsibility and in       generally fell into line with their respective comparison
response to the congressional request, we developed        groups.
two metrics, violations per inspection hour and
proposed penalties per violation, and performed work to    Both mine operators appealed their penalties and both
answer the following questions:                            were resolved. One operator’s penalties were upheld on
                                                           appeal and the other operator received some
1. How did violations per inspection hour and proposed     reductions in its penalties.
penalties per violation at the complainant mines
compare to those at similar mines in South Dakota?         Finally, we did not find any meaningful variances in
                                                           either metric when we compared the Rocky Mountain
2. How did violations per inspection hour and proposed     District (of which South Dakota is a part) to other Metal
penalties per violation at MNM mines in South Dakota       and Nonmetal districts.
compare to those in other states?
                                                           WHAT OIG RECOMMENDED
3. How did violations per inspection hour and proposed     We made no recommendation to the Assistant
penalties per violation at MNM mines in its Rocky          Secretary for Mine Safety and Health. MSHA did not
Mountain District compare to those in other Districts?     provide a written response to the draft report.

Our audit work covered all MNM mines and 121,047
completed inspection events from October 1, 2005,
through September 30, 2011 (FY 2006 to FY 2011).

READ THE FULL REPORT
To view the report, including the scope and
methodology, go to:
http://www.oig.dol.gov/public/reports/oa/2013/05-13-
001-06-001.pdf
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              Enforcement Activity in South Dakota
                                     Report No. 05-13-001-06-001
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 

Objective 1 —	  How did violations per inspection hour and proposed penalties per 

                violation at the complainant mines compare to those at similar mines in 

                South Dakota? ....................................................................................... 3
 

Objective 2 —	  How did violations per inspection hour and proposed penalties per 

                violation at MNM mines in South Dakota compare to those in other 

                states? ................................................................................................... 5
 

Objective 3 —	  How did violations per inspection hour and proposed penalties per 

                violation at MNM mines in the Rocky Mountain District compare to 

                those in MSHA's other Districts?............................................................ 7
 

Appendices              
         Appendix A Background ..................................................................................... 13
 
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 15
 
         Appendix C Acronyms and Abbreviations .......................................................... 19
 
         Appendix D Acknowledgements ......................................................................... 21
 




                                                                                 Enforcement Activity in South Dakota
                                                                                        Report No. 05-13-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              Enforcement Activity in South Dakota
                                     Report No. 05-13-001-06-001
                                                U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                      Office of Inspector General
                                              Washington, D.C. 20210


January 15, 2013
                           Assistant Inspector General’s Report

Joseph A. Main
Assistant Secretary
 for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Blvd.
Arlington, VA 22209

United States Senator John Thune of South Dakota requested that the Office of
Inspector General (OIG) determine if Department of Labor (DOL) Mine Safety and
Health Administration (MSHA) regulations were effectively and consistently applied
throughout the mining industry, but particularly in South Dakota. Senator Thune had
received complaints from 17 South Dakota metal nonmetal (MNM) surface mine
operators and contractors (complainants) that alleged MSHA’s inspections had resulted
in inappropriate citations and excessive monetary penalties. In response to Senator
Thune’s request, we conducted a performance audit to answer the following questions:

    1. How did violations per inspection hour and proposed penalties1 per violation at
       the complainant mines compare to those at similar mines in South Dakota?

    2. How did violations per inspection hour and proposed penalties per violation at
       MNM mines in South Dakota compare to those in other states?

    3. How did violations per inspection hour and proposed penalties per violation at
       MNM mines in its Rocky Mountain District (RMD)2 compare to those in other
       Districts?

To answer these questions, we analyzed data for fiscal years (FY) 2006 through 2011.
The central focus of the complaints was that MSHA was issuing inappropriate citations
and excessive monetary penalties.

We developed two metrics to illustrate how MSHA was performing its enforcement
activities: violations per inspection hour and proposed penalties per violation. These
metrics allowed us to identify differences between the mines in our analysis.
Violations per inspection hour allowed us to compare both large and small mines
without regard to the amount of time they were in operation. We used the rate at which
violations occurred rather than the total number of violations issued because it was
likely that larger mines would receive more citations than smaller mines. In addition,

1
  Penalties are monetary amounts MSHA assesses for each violation and range from $60 to $60,000 per 

violation with a maximum of up to $220,000 for flagrant violations. 

2
  South Dakota is part of the Rocky Mountain District.


                                                                      Enforcement Activity in South Dakota
                                                  1                          Report No. 05-13-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



mines frequently open and close throughout the year. A mine open for a full year would
be likely to receive more citations than one open for less time. Using the rate at which
violations occurred established a common base for large and small mines, and for
mines which were open for varying lengths of time.

Proposed penalties per violation illustrated differences in the average amounts of
penalties assessed against various groups. We compared the average penalties
assessed against four groups of mines: the complainants, South Dakota, the RMD, and
all MNM mines nationwide. By comparing these groups against each other, we were
able to identify differences in the amounts of penalties each was assessed.

In some cases, we also determined how many of the proposed penalties were upheld
on appeal. This step provided a measure of validation to the proposed penalties: if a
penalty was upheld on appeal, we concluded that the penalty and associated violation
were valid.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

Overall, after adjusting for some factors discussed below, our analysis did not find any
significant differences between the complainant mines, South Dakota, and similar mines
around the country.

We found the following: first, both metrics – violations per inspection hour and proposed
penalties per violation – increased for all MNM mines in FY 2009. This increase,
however, was directly attributable to the passage and implementation of the Mine
Improvement and New Emergency Response Act of 2006 (MINER Act), which
mandated much higher inspection levels. Further, Congress provided funding for MSHA
to hire 170 new inspectors that same year.

Second, both metrics – violations per inspection hour and proposed penalties per
violation – were higher for the complainant mines when we compared them to other
comparable mines, and for the state of South Dakota, when we compared it to the
national average. However, we determined that two of the complainant mine operators
were responsible for the majority of the increase in both metrics due to receiving a large
number of violations that year, skewing our results. When we excluded these operators,
the data for both the complainants and South Dakota generally fell into line with their
respective comparison groups. In one case, the operator’s penalties were upheld on
appeal; in another, the operator received some reductions in its penalties. In both
cases, the mine operators appealed their penalties and both were resolved. However,

                                                            Enforcement Activity in South Dakota
                                            2                      Report No. 05-13-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



we excluded these two operators because they were the only two outliers in the group;
neither metric for the remaining mines in the complainant group stood out.

Finally, we did not find any meaningful variances in either metric when we compared the
RMD to other districts.

MSHA did not provide a written response to the draft report.

Results

Objective 1 — How did violations per inspection hour and proposed penalties per
              violation at the complainant mines compare to those at similar
              mines in South Dakota?

In most of the years we analyzed, the group of complainant mines was collectively
issued fewer violations per inspection hour than other comparable mines in South
Dakota. In FY 2009, however, violations per inspection hour were higher for the
complainant mines because a single mine operator received a large number of
violations, skewing the results. Likewise, proposed penalties per violation for most years
in our analysis were comparable for both groups. In FY 2010, however, the same mine
operator again significantly skewed our results. When we excluded this operator from
both metrics in the years in question, the complainant mines, as a group, showed
patterns consistent with other comparable mines in South Dakota.

Violations per Inspection Hour

In FY 2009, the complainant mines as a group were issued .38 violations per inspection
hour versus the South Dakota average of .33. However, we believe this result is
misleading because one complainant (Operator A) was responsible for 41 percent of the
violations issued that year. When we excluded Operator A from our analysis, we found
that violations per inspection hour at the remaining complainant mines were consistent
with other comparable mines in South Dakota. For most other years in our analysis
(FYs 2006-2011), the complainant mines as a group were issued fewer violations per
inspection hour than other mines in South Dakota.

Operator A skewed the results for the entire complainant group, but none of the other
operators in the group stood out in this metric. Excluding Operator A presents results
that are more representative for the complainant mines as a whole.




                                                            Enforcement Activity in South Dakota
                                            3                      Report No. 05-13-001-06-001
                                                U.S. Department of Labor – Office of Inspector General



Chart 1: Total Violations per Inspection Hour

         0.40
         0.35
         0.30
                                                                  Other Comparable Mines in
         0.25                                                     SD
         0.20                                                     Operator A
         0.15
                                                                  Complainants
         0.10
         0.05
         0.00
                2006   2007   2008    2009   2010       2011


Proposed Penalties per Violation

We found that for most years in our analysis, the complainant mines were not assessed
greater proposed penalties per violation than other comparable mines. However, in
FY 2010 the complainant mines, as a group, were assessed an average of $3,082 per
violation, significantly more than other comparable mines in South Dakota, which were
assessed an average of only $396 per violation. However, as before, we found that
Operator A accounted for the vast majority (91 percent) of the penalties assessed
against the complainant group in that year. Furthermore, a large percentage of the
penalties assessed against Operator A were high-dollar penalties. As a result, and also
because the complainant group was comprised of a small number of mines, this single
operator severely skewed our results. Even though there was only a single operator
with disproportionately large penalties, the small size of the complainant group caused
the metrics to be strongly skewed. When we excluded Operator A, the remaining mines
in the complainant group followed the overall average and provide a better
representation of the complainant group.

We reviewed the inspections and penalties assessed against Operator A and found that
this operator’s mines were inspected no more than required by law during the fiscal
years in question. Therefore, the operator was not unduly targeted for additional
inspections.3 Further, we found that over 89 percent of the penalties assessed during
those inspections were upheld on appeal, indicating that the penalties were valid.4

Therefore, because there was only one outlier in this group and the majority of the
penalties assessed against it were upheld on appeal, we believe excluding Operator A
3
  Operator A had two mines: the first had a Regular Safety & Health Inspection in FY 2009 and a
combined spot and verbal inspection in FY 2010. The second had a Regular Safety & Health Inspection
in FY 2009 and a spot and a verbal inspection that was also a Regular Safety & Health Inspection in
FY 2010.
4
  To date, 89 percent of the proposed penalty amounts assessed against this operator have been
resolved, and only 6 percent of those have been vacated.

                                                                 Enforcement Activity in South Dakota
                                                    4                   Report No. 05-13-001-06-001
                                             U.S. Department of Labor – Office of Inspector General



provides a more accurate picture of the overall group of complainants with respect to
penalties per inspection hour.

Chart 2: Proposed Penalties per Violation

        $3,500
        $3,000
        $2,500                                                       Complainants

        $2,000
                                                                     Other Comparable
        $1,500                                                       Mines in SD
        $1,000                                                       Excluding Operator A
         $500
           $0
                 2006   2007   2008   2009   2010    2011



Objective 2 — How did violations per inspection hour and proposed penalties per
              violation at MNM mines in South Dakota compare to those in other
              states?

Violations per inspection hour for MNM mines in South Dakota increased slightly more
than those in other states; however, the data we analyzed consisted of small numbers
which can be disproportionately influenced by very small changes. Further, although
MNM mines in South Dakota generally followed the trend in other states, there were
spikes in proposed penalties per violation in two fiscal years of our analysis. Both of
these spikes, however, could be traced to two operators that significantly skewed our
results. Once we excluded these two operators, the remaining mines in South Dakota
followed the overall averages in other states. Our analysis did not provide any evidence
indicating that mines in South Dakota were unduly targeted for enforcement.

Violations per Inspection Hour in South Dakota

While violations per inspection hour increased slightly more in South Dakota than they
did nationwide, we found no evidence this increase was due to any factor other than
regular mine operations and inspections.

In FY 2006, South Dakota mines received approximately .14 violations per inspection
hour, versus the national average of about .28 violations per inspection hour. In
FY 2011, South Dakota mines increased to approximately .30 violations per inspection
hour, coming closer into line with the national average of about .24 violations per
inspection hour (a difference of less than ½ violation per 8-hour inspection day).




                                                              Enforcement Activity in South Dakota
                                              5                      Report No. 05-13-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



We did not exclude Operator A from our analysis in this section because it had only a
minimal effect, as only a small contributor to the larger overall base of all South Dakota
mines.

Sensitivity Analysis – It is important to note that while there appears to have been a
greater increase in violations per inspection hour in South Dakota than in other states,
the number of mines located in South Dakota is small. As such, small numbers tend to
exaggerate small variations. For example, a change of only five violations in our data
could result in an increase of as much as seven percent in violations per inspection
hour. Therefore, although there appears to be a variance between South Dakota and
the other states, this variance could be the result of small changes in data having
disproportionate effects on our analysis.

Overall, mines in South Dakota appear to have experienced a slightly greater increase
in violations per inspection hours than those in other states. However, nothing in our
analysis indicated to us that this resulted from enforcement actions. In addition,
because the data points were so small – two tenths to about three tenths of a violation
per hour – very small changes in the data tended to have a disproportionate impact on
the metrics. As a result, we had no evidence that this increase resulted from anything
other than regular mine operations and inspections.

Chart 3: Total Violations per Inspection Hour

        0.35
         0.3
        0.25
         0.2
                                                                      South Dakota
        0.15
                                                                      Average All States
         0.1
        0.05
          0
               2006     2007    2008    2009       2010   2011


Proposed Penalties per Violation in South Dakota

We found that for most years in our analysis, mines in South Dakota were not assessed
greater proposed penalties per violation than mines in all other states. However, mines
in South Dakota experienced a spike in proposed penalties in FYs 2007 and 2010. In
FY 2010, we found that Operator A accounted for 43 percent of the proposed penalties
in South Dakota. In FY 2007, we found another mine operator (Operator B) that
accounted for 36 percent of the penalties in South Dakota. Including both of these
operators skewed our results. When we excluded these outlier operators, we found that
the remaining mines in South Dakota generally followed the nationwide average and

                                                            Enforcement Activity in South Dakota
                                               6                   Report No. 05-13-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



have been tracking lower proposed penalties per violation than the national average
since 2008. As noted earlier, the vast majority of the penalties assessed against
Operator A were upheld on appeal. Conversely, Operator B contested 14 of the 23
violations assessed against it and obtained significant reductions in the associated
penalties. However, in neither case were the underlying violations vacated, only the
penalty amounts were reduced.

Chart 4: Proposed Penalties per Violation

        $700
        $600
        $500                                                     South Dakota

        $400
                                                                 Average All States
        $300
        $200                                                     Excluding Operator A &
        $100                                                     B

          $0
               2006   2007   2008   2009   2010   2011


Overall, we found that in the period of FYs 2006 to 2011, violations per inspection hour
in South Dakota rose, but only to come into line with the national average. Further,
proposed penalty amounts in South Dakota, when adjusted to exclude the two outlier
operators, tracked generally lower than the average in other states. These two facts
indicate to us that there is no evidence that South Dakota mines fare any differently
than their counterparts in other states.

Objective 3 — How did violations per inspection hour and proposed penalties per
              violation at MNM mines in the Rocky Mountain District compare to
              those in MSHA's other Districts?

Compared to the other districts, violations per inspection hour decreased for the RMD.
Further, the RMD experienced lower proposed penalties per violation for three of the six
years we analyzed. In addition, the RMD had only slightly higher proposed penalties per
violations for the remaining three years.

Violations per Inspection Hour in the RMD

In FY 2006, mines in the RMD were issued an average of .31 violations per inspection
hour, slightly more than the nationwide average of .28. In 2011, the latest year for which
information is available, mines in the RMD were issued .22 violations per inspection
hour, slightly lower than the nationwide average of .24. Our results indicate that the
RMD experienced a decline in violations per inspection hour from FY 2006 through
FY 2011.

                                                            Enforcement Activity in South Dakota
                                             7                     Report No. 05-13-001-06-001
                                         U.S. Department of Labor – Office of Inspector General




Chart 5: Total Violations per Inspection Hour

       0.35

       0.30

       0.25

       0.20
                                                                   RMD
       0.15
                                                                   Average All Districts
       0.10

       0.05

       0.00
               2006   2007    2008    2009       2010   2011


Proposed Penalties per Violation in the RMD

The RMD experienced lower proposed penalties per violation for 3 of the 6 years
(FYs 2007, 2009, and 2010) we analyzed and only slightly higher proposed penalties
per violation for the other 3 years (FYs 2006, 2008 and 2011) when compared to the
national average for all MNM mines. For example, in FY 2007 the average proposed
penalty per violation for mines in the RMD was $335, less than the national average of
$372. Conversely, in FY 2011, proposed penalties for mines in the RMD were $535,
which was more than the national average of $508.

      Chart 6: Proposed Penalties per Violation

       $700
       $600
       $500
       $400
                                                                       RMD
       $300
                                                                       Average All Districts
       $200
       $100
         $0
               2006    2007    2008   2009       2010   2011




                                                           Enforcement Activity in South Dakota
                                             8                    Report No. 05-13-001-06-001
                                         U.S. Department of Labor – Office of Inspector General




Conclusion

Overall, there were no significant differences between the complainants, South Dakota
mines, and their respective comparison groups. We found some variations in the data in
some years; however, most of the variations could be traced to two mine operators, who
significantly skewed the results for their group. When these operators were excluded,
we did not find any meaningful differences in the results.

As such, we conclude that any variations observed in the data may have been the result
of a combination of factors, namely, increased levels of enforcement stemming from the
passage of the MINER Act, higher MSHA inspector staffing levels, exaggerated effects
of small changes in data, and routine mine operations and inspections. We found no
evidence that the variations in the data were the result of qualitative or quantitative
differences in inspections by MSHA.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                          Enforcement Activity in South Dakota
                                           9                     Report No. 05-13-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              Enforcement Activity in South Dakota
              10                     Report No. 05-13-001-06-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                Enforcement Activity in South Dakota
                11                     Report No. 05-13-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              Enforcement Activity in South Dakota
              12                     Report No. 05-13-001-06-001
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix A
Background

The DOL OIG conducted a performance audit in response to a congressional request
on April 7, 2011, by Senator John Thune of South Dakota. Based on complaints from
some MNM surface mine operators, Senator Thune was concerned that MSHA
regulations were not effectively applied throughout the mining industry, and particularly
in South Dakota (Rocky Mountain District). The Senator provided copies of
correspondence he received from mine operators and contractors alleging that MSHA’s
inspections had resulted in the issuance of inappropriate and unfair citations and the
assessment of excessive monetary penalties.

The Federal Mine Safety and Health Act of 1977, as amended, mandates that MSHA
conduct regular safety and health inspections of the Nation’s mines – four times per
year for underground mines and twice per year for surface mines. If inspectors find
violations of mandatory health and safety standards, MSHA issues a citation or closure
order and could assess a civil monetary penalty. Mine operators have the right to
contest citations and orders before the Federal Mine Safety and Health Review
Commission (FMSHRC).

After a series of fatal mining accidents in 2006 (Sago, Darby, and Aracoma Alma #1
mines), Congress significantly increased the minimum monetary penalties for certain
types of violations through the MINER Act and appropriated funds to hire an additional
170 mine inspectors. As a result, the annual number of citations and orders MSHA
issued increased by 13 percent from 140,082 in calendar year 2006 to 157,613 in
calendar year 2011 and annual civil monetary penalties increased by 261 percent from
$42.8 million to $154.3 million during the same period. As the number of citations and
the amount of assessed penalties rose, so did the number and percentage of contests
filed with FMSHRC.

MSHA’s oversight responsibilities are divided between the Office of Coal Mine Safety
and Health and Office of Metal and Nonmetal Mine Safety and Health (MNMS&H).
MNM mines are located in 50 states, Puerto Rico, and the Virgin Islands. These MNM
mines were assigned to 1 of the 6 MNMS&H district offices (Northeastern District,
Southeastern District, North Central District, South Central District, Rocky Mountain
District, or the Western District). Inspectors from the Rocky Mountain District conduct
mine inspections in South Dakota as well as Arizona, Colorado, Kansas, Montana,
Nebraska, North Dakota, Utah, Wyoming, and part of Idaho.




                                                           Enforcement Activity in South Dakota
                                           13                     Report No. 05-13-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              Enforcement Activity in South Dakota
              14                     Report No. 05-13-001-06-001
                                                     U.S. Department of Labor – Office of Inspector General



                                                                                            Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Upon receiving the letter from Senator Thune, OIG officials met with the Senator’s staff
to discuss the request. Following the meeting, the OIG decided to perform an audit to
address the Senator’s concerns by answering the following questions:

      1. How did violations per inspection hour and proposed penalties per violation at the
         complainant mines compare to those at similar mines in South Dakota?

      2. How did violations per inspection hour and proposed penalties per violation at
         MNM mines in South Dakota compare to those in other states?

      3. How did violations per inspection hour and proposed penalties per violation at
         MNM mines in its RMD5 compare to those in other Districts?

Scope

The audit covered all MNM mines and 121,047 completed inspection events from
October 1, 2005, through September 30, 2011 (FY 2006 to FY 2011).

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

Using audit software, we created tables that combined the MNM enforcement data
records contained in the different files (see Data Reliability Assessment below). Using
these tables, we identified the records that were relevant to the analysis and created
tables that contained only these records. The records that were relevant included the
inspection events that involved the following activities.

          E01 – Regular Safety and Health Inspection
          E02 – 103 (i) Spot Inspections
          E03 – 103 (g) Written Notification Hazard Complaint Inspection
          E04 – Verbal Hazard Complaint Inspections
          E16 – Spot Inspection
          E18 – Shaft, Slope, or Major Construction Spot Inspection

5
    South Dakota is part of the Rocky Mountain District.

                                                                      Enforcement Activity in South Dakota
                                                      15                     Report No. 05-13-001-06-001
                                                 U.S. Department of Labor – Office of Inspector General



        E23 – Impoundment Inspection

We also included 356,974 violations issued to MNM mine operators6 and 353,413
violation assessments7 related to the 121,047 inspection events.

Senator Thune provided the OIG complaints from 20 mine operators located in the
RMD, of which 17 were in South Dakota. Since the majority of the complainants were in
South Dakota, we focused on that state. From the 17 South Dakota complaints, we
identified 9 mine operators. Of the 17 mines, 4 performed stone mining and
13 performed sand and gravel mining. For comparison, we also identified 182 other
stone or sand and gravel mines in South Dakota.

We calculated our metrics by grouping together: (1) MNM mines in each location (50
States, Puerto Rico, and the Virgin Islands), (2) MNM mines assigned to each MNM
District, (3) complainant MNM mines, and (4) the other stone or sand and gravel MNM
mines located in South Dakota for each FY within our audit scope.

We analyzed two metrics for inspection events that ended in each year for FY 2006
through FY 2011.

       Total violations (citations + orders) per inspection hour8
       Proposed penalties per violation9

To determine how South Dakota compared to the other 51 states, the Rocky Mountain
District compared to other five MNM Districts, and the complainants’ mines compared to
similar mines in South Dakota, we ranked the ratios in descending order. We also
identified FYs in which South Dakota, the RMD or the complainants’ mines had
significant ratios changes. To determine if significant changes in the ratios were an
indication of elevated enforcement by MSHA, we determined whether these changes
coincided with specific events (for example, enactment of new laws, MSHA special
enforcement activities, etc.).

Data Reliability Assessment

To determine the reliability of the enforcement data obtained from MSHA’s Program
Evaluation & Information Resources (PEIR) office, we used an approach consistent with
the Government Accountability Office’s Assessing the Data Reliability of
Computer-Processed Data (GAO-09-680G, July 2009, External Version I). MSHA’s
PEIR office provided the following enforcement data for MNM mines:
6
  This included some events that began in FY 2005 but were completed in FY 2006. Therefore, some 

violations MSHA issued during FY 2005 were included. 

7
  Of the 356,974 violations that MSHA issued from FY 2005 to FY 2011, it could have assessed penalties

for 354,212, but only assessed penalties for 353,413 of the violations.

8
  Total violations per inspection hour ratios were calculated using total on-site hours.

9
  We determined that some violations that are assessable have not been assessed. The violations that 

have not been assessed were not included in the proposed penalty per violation ratio calculations, and 

we labeled these violations as ‘unassessed violations.’ 


                                                                   Enforcement Activity in South Dakota
                                                  16                      Report No. 05-13-001-06-001
                                               U.S. Department of Labor – Office of Inspector General




                  Delimited text     Number    Number of                   Time Period
                    file name           of     attributes
                                     records
           ASSESSED_VIOLATIONS.txt   394,066      11        Violations assessed from October 1, 2005,
                                                            to present (December 2011).
           INSPECTIONS.txt           176,363      43        Inspection events with an end date from
                                                            October 1, 2005, through September 30,
                                                            2011.
           MINES.txt                  48,323      64        MNM mines as of December 2011.
           QTR_OPERATOR_EMPROD.txt   535,685      10        Quarterly operator employment data from
                                                            FY 2006 to FY 2012.
           VIOLATIONS.txt            455,353      53        Violations issued from October 1, 2004,
                                                            through September 30, 2011.
                                      Total       181


To determine the reliability of the data, we: (1) reviewed existing information for data
attributes that we identified as key attributes, and (2) performed tests on the data, such
as missing data, duplicate records, invalid data, values outside a designated range,
computer processing accuracy and completeness, etc.

Specifically, we used MSHA’s data dictionary to gain an understanding of the attributes
for the data MSHA provided and identified the 36 data attributes that were key to the
analysis. For each key attribute, we: (1) identified input control points through review of
prior OIG audit documentation and written responses provided by MSHA’s PEIR office
personnel, and (2) tested the reliability and validity of the data using audit software.
Based on these tests and assessments, we concluded the data were sufficiently reliable
to be used in meeting the objectives.

Criteria

Federal Mine Safety and Health Act of 1977

Mine Improvement and New Emergency Response Act of 2006




                                                                    Enforcement Activity in South Dakota
                                                17                         Report No. 05-13-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              Enforcement Activity in South Dakota
              18                     Report No. 05-13-001-06-001
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations


DOL             U.S. Department of Labor

FMSHRC          Federal Mine Safety and Health Review Commission

FY              Fiscal Year

MINER Act       Mine Improvement and New Emergency Response Act of 2006

MNM             Metal and Nonmetal

MNMS&H          Office of Metal and Nonmetal Mine Safety and Health

MSHA            Mine Safety and Health Administration

OIG             Office of Inspector General

PEIR            Program Evaluation and Information Resources




                                                      Enforcement Activity in South Dakota
                                      19                     Report No. 05-13-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                              Enforcement Activity in South Dakota
              20                     Report No. 05-13-001-06-001
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix D
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), 

Robert Swedberg (Audit Manager), Richard Bryan, Elizabeth Garcia, and Mary Lou 

Casazza.





                                                         Enforcement Activity in South Dakota
                                         21                     Report No. 05-13-001-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:     1-800-347-3756
         202-693-6999

Fax:      202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506             

         Washington, D.C. 20210 

